                                               OFFICE OF INSPECTOR GENERAL
                                                                       MEMORANDUM




DATE:         September 29, 2004

TO:           Chairman

FROM:         Inspector General

SUBJECT:      Audit of Physical Security of Enforcement Bureau Facilities and Monitoring
              Stations

The Office of Inspector General (OIG) has completed a review of physical security and safety at
Enforcement Bureau (EB) facilities and monitoring stations. A copy of our Report, entitled
“Physical Review of Enforcement Bureau Facilities and Monitoring Stations” (Audit Report No.
03-AUD-07-10), is attached. The objectives of this review were to assess the physical security
posture of the Enforcement Bureau and Monitoring Station Facilities and to ensure security
upgrades complied with Federal recommendations and other applicable regulations and
standards. We also reviewed field offices for safety issues.

To accomplish the objectives of this audit, we contracted with the consulting firm of Job
Performance Systems, Inc. (JPS). Under our supervision, JPS first reviewed information about
the EB field sites. The JPS review team then conducted site visits to the EB facilities and
Directional Finder (DF) locations, interviewed staff, reviewed documentation, and performed
other tests deemed necessary. The scope of our review included field EB facilities. Our
procedures were designed to comply with applicable auditing standards, specifically the
Generally Accepted Government Auditing Standards (GAGAS) and American Institute of
Certified Public Accountants’ (AICPA) Professional Standards.

The audit yielded several positive observations. We also identified areas of improvement for the
security controls over EB field sites. Specifically, we identified eight (8) conditions for
improvement at EB sites. We recommend that the findings we identified be corrected to
strengthen the Commission’s physical security program. Our recommendations will correct
present problems and minimize the risk that future security problems will occur. All open
findings contained in the attached report will be tracked for reporting purposes.

On June 15, 2004, we provided a draft to EB and the Office of Managing Director (OMD) for
their review and comments. In their response dated September 9, 2004, EB and OMD concurred
with six (6) of the seven (7) findings. For two (2) conditions, EB and OMD indicated partial
concurrence. For all findings, EB and OMD outlined the corrective action taken and/or a
milestone schedule for implementation of corrective action. We have included a copy of the
response from EB and OMD in its entirety as Appendix A and our comments as Appendix B.

Because of the sensitive nature of the information in this report, we have classified it as “Non-
Public – For Internal FCC Use Only” and have limited distribution. Those persons receiving this
report are requested not to photocopy or otherwise distribute this material.

If you have any questions, please contact Thomas Cline, Assistant Inspector General for Audits
at (202) 418-7890.



                                            H. Walker Feaster III
                                            Inspector General
Attachment

cc:    Chief of Staff
       Chief, Enforcement Bureau
       Managing Director
       AMD-PERM
